No. 19-595
IN THE

Supreme Court of the United States
ERIC O’DAY, et al., Individually and On Behalf of the
SunEdison, Inc. Retirement Savings Plan,
Petitioners,
v.
AHMAD CHATILA, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Second Circuit
REPLY BRIEF FOR PETITIONERS
THOMAS J. MCKENNA
GREGORY M. EGLESTON
GAINEY MCKENNA &
EGLESTON
501 Fifth Avenue, 19th Fl.
New York, New York 10017
DANIELLA QUITT
GLANCY PRONGAY &
MURRAY LLP
712 Fifth Avenue, 31st Fl.
New York, New York 10019
December 20, 2019

MATTHEW W.H. WESSLER
Counsel of Record
GUPTA WESSLER PLLC
1900 L Street NW, Ste. 312
Washington, DC 20036
(202) 888-1741
matt@guptawessler.com

Counsel for Petitioners

-iTABLE OF CONTENTS
Table of authorities .............................................................. ii
Reply brief for petitioners ....................................................1
I. This case, like Jander, involves the application
of Dudenhoeffer’s “more harm than good”
pleading standard. .....................................................2
II. The Court should hold this petition for Jander.....4
Conclusion ..............................................................................5

-iiTABLE OF AUTHORITIES
Cases
Jander v. Retirement Plans Committee of IBM,
910 F.3d 620 (2d Cir. 2018) ............................................. 3

-1REPLY BRIEF FOR PETITIONERS
This case involves the dismissal of ERISA breach-offiduciary-duty claims that involve a fiduciary’s decision
not to act on inside information. As the petition explained,
the Second Circuit affirmed that dismissal by concluding
that the allegations could not satisfy Dudenhoeffer’s
“more harm than good” pleading standard. Because that
exact issue is before this Court in Jander, this petition
should be held pending a decision in that case.
In opposition, the respondents assert that Jander “will
have no impact” on this case. Yet they acknowledge that
the claims in this case, just like those in Jander, involve
allegations “that fiduciaries should have acted on the basis
of nonpublic, i.e., inside information.” Opp. 10. And they
concede that the key inquiry in both cases is the same:
whether an “alternative course of action” would “satisfy”
Dudenhoeffer’s “‘more harm than good’ standard.” Opp. 3.
The respondents’ “no impact” assertion thus rests entirely
on a claimed factual distinction: In their view, the “alternative course of action the plaintiffs proposed in Jander”
was “quite narrow and limited;” whereas here, they say, it
was “extreme” and “severe.” Opp. 3.
But that supposed factual distinction is irrelevant to
the core legal question at stake in both cases: how Dudenhoeffer’s “more harm than good” requirement applies for
breach-of-fiduciary-duty claims involving inside information. Because that question indisputably implicates this
case, the Court should hold the petition pending a decision
in Jander.

-2I. This case, like Jander, involves the application of
Dudenhoeffer’s “more harm than good” pleading
standard.
The respondents’ claim that Jander “will have no impact” on this case is demonstrably wrong. Because both
cases involve the same species of claim and implicate the
identical legal inquiry, how the Court decides Jander will
directly impact the result in this case.
As the petition makes clear (at 5–7), the plaintiffs in
this case brought a breach-of-fiduciary-duty claim based,
among other things, on the respondents’ decision not to
act on inside information. In particular, the complaint alleged that the respondents had inside access to crucial
negative information about SunEdison—including the
company’s massive liquidity problems brought on by certain high-interest and exceedingly risky loan agreements,
a looming requirement to post collateral for a margin loan,
and serious discrepancies between the public statements
regarding the company’s cash on hand and the actual
amount.
And the complaint alleged one clear course of action—
an asset purchase freeze—that the respondents could
have taken to avoid doing more harm than good. See Pet.
18. By taking action to freeze purchases of SunEdison
stock, for example, the respondents could have protected
the plan’s participants from further losses. In addition,
taking this action would also avoid saddling the company’s
stock with additional negative expectations. That was
true, the complaint alleged, because the company’s overwhelming negative publicity had already destroyed investor confidence (illustrated by recurring major investor
sell-offs of SunEdison stock) and there was no way the
stock could rebound given the intractable liquidity problems. See Pet. 18; Pet. App. 31a–32a. The viability of this

-3proposed action, moreover, was reinforced by the realworld fact that at least three other major companies had
taken the same action that the respondents could have
taken here. See Pet. 18–19.
Jander involves a similar situation. There, like here,
the plaintiffs brought a breach-of-fiduciary-duty claim alleging that the fiduciaries failed to take action based on
inside information. The plaintiffs alleged that the fiduciaries knew that IBM had artificially inflated the value of its
microelectronics business by failing to publicly disclose
the business’s massive losses. See Jander v. Retirement
Plans Committee of IBM, 910 F.3d 620, 623 (2d Cir. 2018).
And the complaint alleged that, instead of deciding not to
act on this information, the fiduciaries should have taken
steps to protect the plan participants from incurring
losses once the true value of the business became public.
Id. at 628.
True enough, as the respondents repeatedly point out
(see, e.g., Opp. 2–4, 23–28), one of the proposed alternative
actions at issue here differs from Jander—in Jander, the
focus was on early corrective disclosure while here one of
the proposed actions was freezing the purchase of company stock. But that is irrelevant to the legal question at
issue in these cases. In both, determining whether the
complaint stated a breach-of-fiduciary-duty claim required an application of Dudenhoeffer’s “more harm than
good” standard. Compare Pet. App. 5a–6a, 20a–23a (assessing whether the allegations that a prudent fiduciary
should have frozen the purchase of stock “would have done
more harm than good”) with Jander, 910 F.3d at 628 (analyzing whether the allegations “plausibly establish that a
prudent fiduciary in the Plan defendants’ position could
not have concluded that corrective disclosure would do
more harm than good”).

-4II. The Court should hold this petition for Jander.
Beyond the dogged focus on the different factual alternative actions, the respondents offer no compelling reason
why this petition should not be held until the law is settled.
As Jander comes to the Court, the key issue is how lower
courts should decide whether a complaint has plausibly alleged a breach-of-fiduciary-duty claim based on inside information. Compare Respondents’ Br. at 2, 36, Jander,
No. 18-1165 (Sept. 24, 2019) (arguing that the inquiry
should involve “a careful, considered assessment of the
specific factual context” of the allegations and that such an
approach is required by Dudenhoeffer), with Petitioners’
Br. at 22, Jander, No. 18-1165 (Aug. 6, 2019) (insisting that
the Court should impose a general rule that ERISA fiduciaries never have a duty “to use material nonpublic information learned in a corporate capacity to make decisions
in their fiduciary capacity”). That question is implicated
here no less than in Jander.
And a decision resolving that issue will undoubtedly affect this case. Although the plaintiffs here offered a host
of context-specific allegations to demonstrate that one
proposed action by the fiduciaries—freezing purchases of
SunEdison stock—would not have done more harm than
good, the lower court declined to specifically consider or
analyze these allegations. Instead, it held that this type of
proposed action was categorically insufficient to meet
Dudenhoeffer’s pleading standard and incapable of stating
a breach claim. See Pet. 19–20. That type of categorical
rule, although not endorsed in Dudenhoeffer, is advanced
by the petitioners in Jander.
But if, as the Jander respondents have argued, a
court’s analysis of Dudenhoeffer’s “more harm than good”
standard requires “a careful, considered assessment of
the specific factual context” of the allegations, then the

-5approach taken here by the lower courts will have been
error. And that is all the more true if this Court in Jander
reiterates that Dudenhoeffer’s “context-sensitive” approach offers courts flexibility to account for the many varieties of situations in which an ESOP fiduciary might
need to decide whether to take an action—like freezing
the purchase of assets—or do nothing.
Given that the outcome of this case turns on how
Dudenhoeffer should be applied, this case should be held
pending resolution of Jander.
CONCLUSION
The petition for a writ of certiorari should be held
pending this Court’s decision in Jander, and then disposed
of accordingly.

Respectfully submitted,
MATTHEW W.H. WESSLER
Counsel of Record
GUPTA WESSLER PLLC
1900 L Street NW, Ste. 312
Washington, DC 20036
(202) 888-1741
matt@guptawessler.com
THOMAS J. MCKENNA
GREGORY M. EGLESTON
GAINEY MCKENNA &
EGLESTON
501 Fifth Avenue, 19th Fl.
New York, New York 10017
(212) 983-1300

-6DANIELLA QUITT
GLANCY PRONGAY &
MURRAY LLP
712 Fifth Avenue, 31st Fl.
New York, New York 10019
(212) 935-7400
December 20, 2019

Counsel for Petitioners

